SEPTEMBER 12, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




NASA’S GRANT ADMINISTRATION AND MANAGEMENT




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-026 (ASSIGNMENT NO. A-10-009-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

C.F.R.       Code of Federal Regulations
FY           Fiscal Year
GAO          Government Accountability Office
GIC          Grant Information Circular
NPR          NASA Procedural Requirements
NSSC         NASA Shared Services Center
OMB          Office of Management and Budget
SAP          Enterprise Resource Planning Software used by NASA
U.S.C.       United States Code


                                                                  REPORT NO. IG-11-026
SEPTEMBER 12, 2011




                                                                            OVERVIEW

                   NASA’S GRANT ADMINISTRATION AND
                            MANAGEMENT

                                                                              The Issue

  NASA makes significant and sustained investments each year to fund scientific research,
  scholarships, fellowships, and educational activities in support of its mission. For
  example, over the past 5 years NASA has awarded approximately $3 billion in grants. In
  fiscal year (FY) 2010 alone, NASA awarded $569.8 million in grants. Given these large
  sums of money, it is imperative that NASA ensure its grants are properly administered
  and managed.

  NASA offices such as the Science Mission Directorate and Office of Education publicly
  issue announcements to solicit new research and development concepts in support of
  NASA’s mission. NASA also receives unsolicited proposals that are independently
  developed without the Agency’s assistance but that relate to NASA research objectives.
  Examples of solicited and unsolicited proposed activities submitted to NASA in the past
  include proposals for:
      •   developing tools to analyze data on the evolution of the planet Mercury;
      •   developing a telescope and data collection instruments for mapping and analyzing
          star formation in the Milky Way;
      •   developing programs and resources to educate the public on the atmosphere and
          climate change; and
      •   administering internship programs to engage students in science, technology,
          engineering, and mathematics.

  According to NASA, it makes awards based on the best proposals given the funding
  available. The nature of the activities proposed dictates whether the Agency awards a
  grant or contract. Grants provide financial assistance to grantees to accomplish
  something that benefits the public and are used when the grantee independently performs
  the activities with minimal NASA involvement. In contrast, contracts are used to acquire
  specific property or services needed to accomplish a NASA mission or project for the
  direct benefit or use of NASA.

  The Headquarters Office of Procurement is responsible for establishing overall grant
  policies and procedures, while the NASA Shared Services Center (NSSC) is primarily
  responsible for processing grant awards. NASA established the NSSC in 2006 to


REPORT NO. IG-11-026
                                                                                                        OVERVIEW



     consolidate selected business activities from the Centers, and processing grant awards
     was one of the activities transferred to the NSSC. Before 2006, grant administration was
     decentralized, with officials at Headquarters and each of the 10 Centers responsible for
     awarding and managing their respective grants. NASA officials told us that transferring
     grant administration responsibilities from the Centers to the NSSC allows for more
     consistency in the award process, tighter controls over the expenditure of funds, and an
     independent review of the reason for the award.

     Even after the NSSC’s inception, Center procurement offices retained responsibility for
     grants awarded prior to its establishment. This authority includes extending existing
     grants and managing ongoing multi-year grants, but excludes awarding grants that require
     a new proposal or new scope of work. Further, Centers retain the ability to award new
     grants to Science and Research Institutes, because these grants require close collaboration
     between the Institutes and the individual Centers. 1

     Our audit objectives were to determine whether NASA’s grant funds are being used for
     their intended purposes and whether the Agency is compliant with laws, regulations, and
     NASA requirements in administering and managing its grant program. To accomplish
     our objectives, we identified the universe of grant actions NASA awarded between
     October 1, 2007, and March 31, 2010; the value of those grants totaled $2.4 billion.
     From this universe, we judgmentally selected for review eight grants with a combined
     value of $17.3 million (see Appendix B). Selecting a sample allowed us to examine these
     grants in-depth throughout the entire process: from the Agency’s award, to the grantees’
     performance, to NASA’s management of expenditures by grantees. As part of this
     examination, we interviewed grantees, staff at NASA Headquarters, the NSSC, Glenn
     Research Center (Glenn), and Goddard Space Flight Center (Goddard). In addition, we
     reviewed grant award documentation including technical and peer reviews, budget
     proposals, performance reports, and quarterly financial reporting documentation. We
     also visited grantees and performed substantive testing to validate whether grant funds
     were used for their intended purpose, to assess the sufficiency of grantee performance,
     and to examine NASA’s management of the grants. We reviewed internal controls at all
     levels of the process. Details of the audit scope and methodology are in Appendix A.

     Results

     NASA does not have an adequate system of controls to ensure proper administration and
     management of its grant program. Specifically, we identified weaknesses in the
     announcement, administration, and oversight of Agency grants. For example, we found
     that NASA:

           •    awarded grants in lieu of contracts, contrary to Federal and NASA regulations and
                requirements;

     1
         NASA established Science and Research Institutes in 1999 to foster greater involvement by the larger
         scientific community in the accomplishment of the Agency’s overall science and research programs.



ii                                                                                        REPORT NO. IG-11-026
OVERVIEW



      •   awarded grants and grant supplements contrary to NASA requirements governing
          unsolicited proposals;

      •   did not provide adequate oversight of grantee performance and expenditures; and

      •   awarded unauthorized and unallowable grant supplements contrary to Federal and
          NASA regulations.

  The nature of the control weaknesses identified lead us to believe our findings reflect
  systemic deficiencies in the administration and management of NASA’s grant program
  (see Appendix C for a summary of the weaknesses by grant reviewed).

  Oversight of the Grant Award Process. We found that grants awarded by the Centers
  do not receive independent oversight from the NSSC and are not otherwise subject to
  controls sufficient to validate the accuracy of the award instrument or appropriateness of
  the award. Specifically, we identified three grant supplements totaling $410,191 for
  which a contract would have been the more appropriate procurement instrument. Grants
  provide financial assistance to grantees for the independent completion of agreed-upon
  activities. In contrast, contracts are used to acquire property or services for the direct
  benefit or use of the Federal Government. For the three supplements we identified,
  contracts should have been used because the grantee performed personal services that
  otherwise would have been performed by NASA employees or contractors for the direct
  benefit of NASA. Because procurement contracts are subject to statutory and regulatory
  requirements that generally do not apply to grants, use of an incorrect procurement
  instrument could intentionally or inadvertently bypass competition and other legal
  requirements.

  We also found that NASA grant officers at two Centers awarded $7.3 million in grants
  and grant supplements (43 percent of our sample) contrary to NASA requirements
  regarding unsolicited proposals. Specifically, grant officers at Goddard improperly
  awarded 12 grant supplements totaling $1.3 million to one grantee and a grant officer at
  Glenn improperly awarded $6 million for two education grants and 19 supplements to
  another grantee when, in both cases, proposals for the work should have been solicited
  from the public.

  In the 20 years since the original grants were awarded to these two grantees, grant
  officers at Goddard and Glenn have routinely awarded related grants and grant
  supplements worth several million dollars to these two grantees for unsolicited proposals
  for work that was not new, unique, or innovative. We found that Center officials had
  direct involvement with the grantees prior to submission of the proposals, awarded grant
  supplements that were outside the scope of the original grant, and awarded grant
  supplements when a new grant should have been awarded. Because the two Centers did
  not follow NASA requirements governing unsolicited grant proposals they circumvented
  the competitive process and cannot be sure that they received the best value for NASA’s
  money.



REPORT NO. IG-11-026                                                                           iii
                                                                                                          OVERVIEW



     Monitoring Grantees’ Performance. During the audit, we found internal control
     weaknesses in NASA’s monitoring of grantee performance. NASA Office of
     Procurement officials have issued minimal requirements to ensure that once grant funds
     are awarded, grant officers, technical officers, and finance officials perform appropriate
     oversight of the grantee’s financial and programmatic performance. 2 While the Science
     Mission Directorate and the Headquarters Office of Education have established or are in
     the process of establishing internal controls to monitor grantee performance, they have no
     requirements to perform such common grant monitoring actions as desk reviews or site
     visits. Further, while NASA complies with Office of Management and Budget (OMB)
     Circular A-133, which requires that grantees have annual audits conducted when
     expenditures exceed $500,000, we believe it is unwise for NASA to rely on these audits
     as the sole means of monitoring grantee performance or identifying unallowable costs. In
     addition, we found NASA’s requirements concerning review of financial and program
     reports to be minimal at best. We believe the limited oversight currently provided by
     NASA officials is the reason we identified $7,031 in unauthorized or unallowable
     expenditures in the eight grants we reviewed (see Appendix D for details).

     We also found that the NASA Grant and Cooperative Agreement Handbook (Handbook)
     issued by the Headquarters Office of Procurement provides that grantees may deviate
     from their proposed budgets without approval from NASA except when the change
     involves property, construction, or subcontract-related costs. In our view, this broad
     discretion to deviate from proposed budgets increases the risk that grantees will incur
     unauthorized or unallowable costs or expenditures unrelated to the purpose of the grant.
     For example, we found that one grantee paid employee tuition costs totaling $7,388 even
     though the tuition costs were not included in the budget approved by NASA.

     During the course of our interviews, NASA technical officers said their reviews of
     grantee annual programmatic performance reports were necessarily cursory given their
     workload. Further, one Center grant officer equated grant funding with giving a “gift” to
     the grantee, which in our view means that once the funding is awarded the Agency’s
     oversight responsibilities are minimal. Based on such comments and the minimal
     internal controls, policies, and procedures in place for oversight of grantees, we conclude
     that NASA’s monitoring of grantee performance is inadequate.

     Moreover, NASA’s limited efforts to monitor its grant awards differs markedly from that
     of other Federal granting agencies. For example, the Department of Justice’s Office of
     Justice Programs, which in FY 2010 awarded $3 billion in grants, requires annual grantee
     desk reviews and recommends that such reviews be conducted semiannually. 3 The
     Government Accountability Office (GAO) stated that Federal grant-making agencies in
     general need to exercise effective oversight and implement internal controls to ensure that


     2
         Technical officers have experience in the proposed areas of work and evaluate the merits of the proposal.
     3
         Department of Justice, Office of Inspector General, “Office of Justice Programs’ Management of Its
         Offender Reentry Initiatives” (Audit Report 10-34, July 2010).



iv                                                                                         REPORT NO. IG-11-026
OVERVIEW



  the goals of the grant are achieved and that funds are used for their intended purposes. 4
  Specifically, in June 2011 testimony before Congress, GAO testified that grant-making
  agencies need effective processes for, among other things, monitoring the financial
  management of grants and ensuring results through performance monitoring. In our
  view, conducting periodic, comprehensive reviews of information reported by grantees
  using desk reviews or site visits could reduce the level of noncompliance with grant
  requirements, thereby reducing the risk of fraud, waste, or abuse in NASA’s grant
  program.


                                                                        Management Action

  NASA needs to strengthen its policies, procedures, and internal controls to ensure that
  proper award instruments are used consistently; grants are solicited and awarded in an
  open and transparent fashion; supplements are not used when new grants should be
  awarded; and grantees do not incur unauthorized or unallowable costs. During our
  review, we found that Agency officials are taking steps to enhance management of
  NASA’s grant program, as evidenced by the Headquarters Office of Procurement holding
  its first “Grant Boot Camp” training session in March 2011. The primary objective of
  this training was to discuss with NASA grant-making officials the solicitation, award, and
  administration of grants, including how they differ from contracts.

  In keeping with our normal practice, the OIG provided a draft of this report to NASA
  management for review and comment. However, as of September 12, 2011, NASA had
  not provided an official response and therefore we are issuing the report without a
  management response. Technical comments received earlier from NASA have been
  incorporated as appropriate.




  4
      GAO, “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
      (GAO-11-773T, June 23, 2011).



REPORT NO. IG-11-026                                                                           v
SEPTEMBER 12, 2011




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 5

  RESULTS
      NASA’s Grant Oversight Needs Improvement _______________ 6

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 20
      Prior Coverage ______________________________________ 20

  APPENDIX B
      Grants Reviewed During the Audit _______________________ 21

  APPENDIX C
      Grant Objectives and Issues Identified ___________________ 22

  APPENDIX D
      Table of Questioned Costs _____________________________ 23

  APPENDIX E
      Report Distribution ___________________________________ 24




REPORT NO. IG-11-026
SEPTEMBER 12, 2011




                                                                       INTRODUCTION


Background

  NASA makes significant and sustained investments each year to fund scientific research,
  scholarships, fellowships, and educational activities in support of its mission, often in the
  form of grant awards. NASA offices such as the Science Mission Directorate and Office
  of Education issue announcements to solicit new research and development concepts and
  provide opportunities for the public to contribute to NASA’s mission. NASA also
  receives unsolicited proposals independently developed and submitted from prospective
  grantees for activities that NASA did not originate. Examples of solicited and unsolicited
  proposals previously submitted to NASA include proposals for:
      •   developing tools to analyze data on the evolution of the planet Mercury;
      •   developing a telescope and data collection instruments for mapping and analyzing
          star formation in the Milky Way;
      •   developing programs and resources to educate the public on the atmosphere and
          climate change; and
      •   administering internship programs to engage students in science, technology,
          engineering, and mathematics.

  NASA makes awards based on the best proposals given the funding available. The type
  of activities to be accomplished dictates whether the Agency awards a grant or contract.
  Grants provide financial assistance to grantees for accomplishing tasks that benefit the
  public and are used when the grantee independently performs the activities with minimal
  NASA involvement. In contrast, contracts are used to acquire specific property or
  services for accomplishing a NASA mission or project for the direct benefit or use of
  NASA. Unlike contracts, grants are generally not subject to Federal Acquisition
  Regulation requirements such as specific competition requirements, the ability to submit
  bid protests, and a specific jurisdiction for resolving disputes.

  Under the National Aeronautics and Space Act of 1958, NASA funds three types of
  grants:

      1. Research grants to facilitate research and development projects that will stimulate
         or support the acquisition of knowledge or understanding.

      2. Education grants to fund educational activities and research performed by
         educational institutions or other nonprofit organizations.




REPORT NO. IG-11-026                                                                              1
                                                                                                    INTRODUCTION



          3. Training grants to fund scholarships, fellowships, or stipends to teachers and/or
             faculty. 5

    According to NASA’s Annual Procurement Report, in fiscal year (FY) 2010 NASA
    awarded $569.8 million in grants: $417.9 million to educational organizations;
    $138.7 million to nonprofit entities; and $13.2 million to commercial firms. As
    illustrated in the following figure, over the past 5 years NASA has awarded
    approximately $3 billion in grants: $2.2 billion to educational institutions; $677 million
    to nonprofit organizations; and $81 million to commercial firms.

    NASA Grants Awarded between 2006 and 2010

            Nonprofit                                                      Commercial
          organizations,                                                     firms,
           $677 million                                                    $81 million
             (23%)                                                           (3%)




                                                                                    Educational
                                                                                    institutions,
                                                                                     $2.2 billion
                                                                                       (74%)

    Source: NASA Annual Procurement Reports

    Grant Award and Management Responsibilities. The NASA Grant and Cooperative
    Agreement Handbook (Handbook) is the central source for all grant-related
    requirements. 6 The Handbook provides the policies and procedures that NASA
    procurement officers, technical officers, and grantees should follow in the pre-award,
    award, post-award, and closeout phases of grant management. 7 In addition, NASA issues
    Grant Information Circulars and Grant Notices to publicize regulatory changes not yet
    incorporated in the current version of the Handbook.


    5
        NASA may also fund facility grants for the acquisition, construction, use, maintenance, and disposition of
        facilities but, as of May 31, 2011, had not awarded any such grants.
    6
        Cooperative agreements provide financial assistance to recipients for accomplishing something that
        benefits the public but, unlike grants, are awarded when NASA has a substantial role in the completion of
        the funded activity. Cooperative agreements were not reviewed during the course of this audit.
    7
        NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement Handbook,” is
        codified in the Code of Federal Regulations (C.F.R.) at Part 1260.



2                                                                                         REPORT NO. IG-11-026
INTRODUCTION



  The Office of Procurement is responsible for establishing grant policies and procedures,
  while the NASA Shared Services Center (NSSC) is primarily responsible for processing
  grant awards. NASA established the NSSC in 2006 to consolidate selected business
  activities from the Centers and to reduce duplication of effort and overhead. The
  processing of grant awards was one of the procurement activities transferred to the
  NSSC. Before 2006, the grant-making process was decentralized, and officials at NASA
  Headquarters and each of the 10 Centers were responsible for awarding and managing
  their respective grants. NASA officials told us that transferring grant administration
  responsibilities from the Centers to the NSSC allows for more consistency in the award
  process, tighter controls over the expenditure of funds, and an independent review of the
  reason for the award.

  However, even after the creation of the NSSC, Center procurement offices retained
  responsibility for grants awarded prior to its establishment. This authority includes
  extending existing grants and managing ongoing multi-year grants, but excludes Science
  and Research Institutes grants, and awarding grants that require a new proposal or
  involve a new scope of work.

  Phases of Grant Administration. The NASA grant cycle can be categorized into four
  phases: pre-award, award, post-award, and closeout. Responsibility for carrying out
  each phase differs depending on circumstances such as whether the grant was awarded by
  a Center or the NSSC or whether the grantee is a Science and Research Institute (in
  which case the award is made by a Center and not through the NSSC). According to the
  NSSC Grant and Cooperative Agreement Service Delivery Guide dated January 2007,
  seven Centers were managing grants to 16 Science and Research Institutes.

          Pre-Award. NASA may award grants based on solicited or unsolicited
  proposals. NASA uses Broad Agency Announcements to solicit proposals to conduct
  research activities related to NASA’s mission or to perform a specific function, such as
  administering an internship or fellowship program. Educational institutions, nonprofit
  organizations, and private industry respond by submitting proposals describing how they
  will conduct the proposed activities, their competencies, and the funding that will be
  required to complete the proposed activities. Solicitation announcements are accessible
  to the public and offer the greatest opportunity for competition. Examples of Broad
  Agency Announcements NASA commonly issues include NASA Research
  Announcements or Announcements of Opportunity that result in the award of a contract,
  grant, or cooperative agreement. NASA also uses Graduate Student Research Program
  Announcements that result in training grants for graduate-level students.

  NASA also receives unsolicited proposals from grantees; these proposals are
  independently developed and submitted for activities that NASA did not solicit. These
  activities are based on an individual or organization’s ideas for conducting work related
  to NASA’s mission. NASA regulations state that unsolicited proposals must be for new,
  unique, or innovative ideas that the proposer independently originated with limited
  NASA involvement.



REPORT NO. IG-11-026                                                                          3
                                                                                    INTRODUCTION



    For all solicited and unsolicited proposals, a technical officer with expertise in the
    proposed area of work reviews the proposal. This review evaluates the merit of the
    proposal in relation to NASA’s mission and assesses the reasonableness of the proposal’s
    costs. Documentation of the technical officer’s review and approval of the proposal is
    submitted to the grant officer. The grant officer reviews the project’s proposed budget
    for compliance with Federal and NASA requirements and uses the technical officer’s
    recommendation to determine whether an award should be made and the appropriate type
    of procurement instrument to use.

            Award. As noted earlier, since May 2006 the NSSC has been responsible for
    awarding new grants except for grants to Science and Research Institutes, which remain
    the responsibility of the Centers. According to the Office of Procurement, authority over
    these grants was not transferred to the NSSC because these types of grants require close
    collaboration between the Institutes and the Centers and the NSSC business model was
    not set up to handle this type of interaction. Center officials may request a waiver from
    the Office of Procurement to award other types of new grants that normally would be
    administered by the NSSC. However, Office of Procurement officials stated that as of
    April 2011 no such waivers had been approved.

    Before awarding a grant, grant officers at the Centers and the NSSC ensure that all
    required documentation, such as the procurement, property, technical, and budgetary
    reviews, are contained in the grant package. Once a grant is approved, the grant officer
    requests the appropriate financial official to obligate either the total grant amount or an
    incremental amount to the grantee.

            Post-Award. After a grant is awarded, the grantee is responsible for performing
    the agreed-upon activities and for meeting reporting requirements, including submission
    of quarterly and final financial reports, annual and final performance reports, annual and
    final inventory reports, and interim and final patent and invention reports. Technical
    officers monitor the grantee’s performance through review of performance reports. The
    grantee requests funding, scope of work, and period of performance changes to the
    original grant by submitting a supplemental proposal. The supplemental proposal goes
    through the same review and approval process as outlined in the pre-award phase. Grant
    officers are responsible for administering additional procurement activities such as
    awarding supplemental grants based on the technical officer’s recommendation.

    For all NSSC-awarded grants, the NSSC sends grantees notice of performance report due
    dates, as well as notice of any late performance reports. The Centers are responsible for
    sending these notifications for Center-awarded grants. NASA finance officials monitor
    grantees’ use of grant funds. NASA uses the Payment Management System maintained
    by the Department of Health and Human Services under which grantees draw down grant
    funds and submit required financial activity reports. Although NASA relies on this
    system to identify late financial reporting, the system does not notify grantees when their
    financial reports are late. NASA finance officials receive a report showing the amount of
    funds the grantee received and the status of the associated financial reports and, if
    warranted, can freeze grant funds. Centers retain responsibility for restricting access to


4                                                                            REPORT NO. IG-11-026
INTRODUCTION



  funds on the grants they monitor when grantees do not file required financial or
  performance reports in a timely manner.

  NASA also requires grantee compliance with Office of Management and Budget (OMB)
  Circular A-133, which requires that grantees have annual audits conducted when Federal
  expenditures exceed $500,000. In addition, the Handbook notes that Agency officials
  should monitor grantee performance; however, neither the Handbook nor any other
  NASA guidance sets forth specific requirements for how or when grant, technical, or
  finance officials should conduct such monitoring. Similarly, a Grant Information
  Circular issued in February 2008 states that officials should exercise due diligence when
  reviewing grant packages during pre-award and post-award phases to ensure costs are
  allowable, reasonable, and necessary; however, the Circular does not provide specifics
  about how to accomplish this “due diligence” or who is responsible for ensuring
  compliance. Further, we found no NASA requirements specifically addressing oversight
  of grantee performance during the grant performance period.

          Closeout. After the grantee completes all required activities, the NSSC and
  Center administratively end the grant through a formal closeout process that involves the
  grantee submitting final financial, performance, property, and patent and invention
  reports within 90 days after the period of performance has expired. NSSC and Center
  officials review the reports, de-obligate any unused funds, and archive the grant file
  documentation. According to the Handbook, the closeout process should be completed
  within 6 months after receipt of the grantee’s final reports.


Objectives

  The objectives of the audit were to determine whether NASA’s grant funds are being
  used for their intended purpose and whether the Agency is compliant with established
  laws, regulations, and NASA-specific requirements when administering and managing
  grants. To accomplish our audit, we conducted interviews with representatives from the
  NASA Office of Procurement, grant officers, technical officers, and grantees. We visited
  NASA Headquarters, the NSSC, and two Centers to observe and document activities,
  processes, and internal controls related to grant solicitation, award, and closeout. We
  also reviewed laws, regulations, and documentation pertinent to our detailed review of
  eight grants with a combined value of $17.3 million. Additional details of the audit scope
  and methodology, internal controls, and prior audit coverage are in Appendix A;
  Appendix B lists the eight grants that we reviewed.




REPORT NO. IG-11-026                                                                           5
                                                                                         RESULTS




                                                     NASA’S GRANT OVERSIGHT
                                                         NEEDS IMPROVEMENT

           NASA does not have an adequate system of controls in place to ensure proper
           administration and management of its grant program. As a result, some grant funds
           are not being used for their intended purposes. In addition, NASA has not
           established adequate policy or internal controls to effectively administer and manage
           the grant award process, review grant expenditures, or assess grantee performance.
           As a result, NASA awarded $7.3 million in grants and grant supplements that did not
           comply with NASA requirements for unsolicited proposals. Further, we found
           $299,599 in unauthorized or unallowable expenditures associated with two Office of
           Education grants and one Science Mission Directorate grant. The nature of the
           control weaknesses identified lead us to believe our findings reflect systemic
           deficiencies in the administration and management of NASA’s grant program.


Inadequate Administration and Management of NASA Grants

    NASA does not have an adequate system of controls to ensure proper administration and
    management of its grant program. Specifically, we identified weaknesses in NASA’s
    oversight of awards and monitoring of grantee performance and financial expenditures.
    See Appendix C for a summary of the weaknesses by grant reviewed.

    NASA’s Grant Award Process. NASA established the NSSC in 2006 to consolidate
    certain business activities from NASA Headquarters and the 10 Centers, including the
    award and administration of new grants. By transferring these responsibilities to the
    NSSC, NASA processes most of its grant awards from a central location to facilitate
    greater consistency in the award process, tighter controls over the expenditure of funds,
    and an independent review of the basis for awards. However, the Centers still manage
    grants awarded prior to establishment of the NSSC, including supplemental funding to
    such grants.

    Of the grants reviewed during the course of our audit, we found that grants awarded by
    the Centers are not subject to sufficient controls to ensure use of the proper award
    instrument or the appropriateness of the underlying award. Specifically, we identified
    instances in which Center personnel awarded grants when contracts were the appropriate
    procurement instrument and awarded supplements as if they were based on unsolicited
    proposals even though the proposals were for such routine activities as administering
    student internships and online coursework and were not submitted independent of
    involvement from Center personnel. We believe that NASA needs to issue clear
    requirements to ensure that all grants are subject to a consistent level of review and to
    ensure the correct award instrument is used.



6                                                                          REPORT NO. IG-11-026
RESULTS



  In an effort to enhance NASA’s management of its grant program, in March 2011 the
  Office of Procurement held the first “Grant Boot Camp” training. The primary objective
  of this training is to review with NASA grant officers the solicitation, award, and
  administration of grants and discuss how grants differ from contracts. In addition, NASA
  issued a Grant Information Circular in May 2011 that requires all unsolicited proposals
  be reviewed by the NSSC. We believe this training, in conjunction with strengthened
  policies and procedures, will help improve the Agency’s efforts to administer grant
  awards.

  Appropriateness of Award Instrument. We identified three instances of one Center
  awarding a combined total of $410,191 in grant supplements when contracts would have
  been the proper award instrument. Because Center grant officials were able to award
  these grant supplements without oversight from NASA Headquarters or the NSSC, no
  controls were in place to independently validate their choice of award instrument.

  We found that grant officers at Goddard Space Flight Center (Goddard) awarded
  $410,191 in three grant supplements under an existing, appropriately awarded Space
  Grant when, according to the Handbook, they should have issued contracts to acquire
  these services. 8 Specifically, for two supplements, $292,568 was funded by the Space
  Grant Program for the grantee to hire an individual to perform duties in NASA’s
  Headquarters Office of Education associated with administering the National Space Grant
  Program – duties that typically would be performed by civil servant or contractor staff.
  This individual assisted NASA’s Space Grant Program Office in reviewing and tracking
  state program budgets, proposals, and reports and provided support for selection and
  review panels. The third supplement totaling $117,623 was funded by Langley Research
  Center (Langley) under the Global Climate Change Education Program (Program) for the
  grantee to hire an individual to perform duties associated with administering the Program
  and other duties as assigned in NASA’s Headquarters Office of Education – duties that
  typically would be performed by civil servant or contractor staff. This individual assisted
  in the transition of the Program’s management to Langley and served as the NASA
  Headquarters liaison for the Program. This individual was also tasked to contribute to the
  development of the Office of Education Employee Handbook, including chapters on the
  budget cycle and releasing of Office of Education competitive solicitations.

  As noted earlier, grants are supposed to provide financial assistance to grantees for the
  independent completion of agreed-upon grant activities, whereas contracts are the
  appropriate instrument to acquire property or services for the direct benefit of the Federal
  8
      The congressionally mandated National Space Grant Program is intended to (1) promote science,
      mathematics, and technology education; (2) recruit and train underrepresented minorities and persons
      with disabilities; (3) encourage interdisciplinary education, research, and public service programs related
      to aerospace; and (4) encourage joint programs among universities, aerospace industry, and Federal, state,
      and local governments. The Space Grant national network includes over 850 affiliates from universities,
      colleges, industry, museums, science centers, and state and local agencies organized into 52 consortia in
      all 50 states, the District of Columbia, and the Commonwealth of Puerto Rico. A lead institution
      represents each consortium. NASA announces funding opportunities within the National Space Grant
      Program, although only proposals from the lead institution for each consortium are accepted for
      consideration.



REPORT NO. IG-11-026                                                                                                7
                                                                                                      RESULTS



    Government. Indeed, the Handbook states that a procurement contract is to be used to
    acquire goods or services related to a NASA mission or project for NASA’s benefit while
    grants provide financial assistance to grantees for accomplishing a public purpose that
    benefits the public. Procurement contracts are subject to a variety of statutory and
    regulatory requirements that generally do not apply to grants, such as specific
    competition requirements, the ability to submit bid protests, and a different jurisdiction to
    resolve contract disputes. Therefore, to comply with Federal and NASA requirements,
    grant officials should use the appropriate funding instrument in these matters.

    During our audit, representatives from the Headquarters Office of Education informed us
    that they were aware of the issue we identified with this grant and had worked with the
    Office of Procurement and the Office of General Counsel to resolve this matter. To this
    end, the Office of Education provided documentation supporting the resignation of the
    grant coordinator in May 2007 and the subsequent modification of an ongoing support
    services contract to provide the resources needed for the administration of the Space
    Grant Program. The documentation also included support to show that the grant fellow
    resigned in March 2010 and was hired by the support services contractor in March 2010.
    On May 24, 2011, NASA issued a Grant Information Circular that requires the NSSC to
    independently review and approve unsolicited proposals that do not exceed $550,000
    prior to award. 9

    With regard to the use of Space Grant funds for the two supplements, the Space Grant
    Program Manager stated that using the funds to administer the Program was allowable.
    However, legislative history accompanying Appropriations Acts for FY 2005 and FY
    2009 specifically identified that for NASA Space Grants, not more than $1,000,000 shall
    be retained for program administration. 10, 11 Further, the 2006 conference report set forth
    specific grant funding amounts, leaving $650,000 for other expenses. 12 Because the
    $292,568 was used for the purpose of program administration under the guise of a
    grantee award, we have cause for concern that the Agency may have circumvented the
    congressional intent for administrative costs and used grantee funds to supplement its
    administrative budget. We made numerous requests for supporting documentation to
    verify the Space Grant Program administration costs incurred by the Agency in an effort
    to assess this position. However, we did not receive the requested documentation.

    Appropriateness of Award. We found that grant officials at Goddard and Glenn
    Research Center (Glenn) awarded $7.3 million in grants and grant supplements to Old

    9
        NASA Grant Information Circular (GIC) 11-02, “Requirements for Non-Competitive Agency Grant and
        Cooperative Agreement Actions, Exclusive of those actions prescribed by 14 CFR 1260.17, Evaluation
        and Selection of Unsolicited Proposals,” May 24, 2011.
    10
         House Appropriations Committee Print for “Omnibus Appropriations Act, 2009” (Public Law 111-8),
         March 11, 2009.
    11
         Conference Report, H. Report 108-792 for “Consolidated Appropriations Act, 2005” (Public Law 108-
         447), December 8, 2004.
    12
         Conference Report, H. Report 109-272 for “Science, Justice, Commerce, and Related Agencies
         Appropriations Act, 2006” (Public Law 109-108), November 22, 2005.



8                                                                                     REPORT NO. IG-11-026
RESULTS



  Dominion University Research Foundation (Old Dominion) and the Ohio Aerospace
  Institute (Ohio Aerospace), respectively, based on proposals that were not in compliance
  with the Handbook and Guidance for the Preparation and Submission of Unsolicited
  Proposals (Guidance for Unsolicited Proposals).

  Specifically, according to the Handbook and the Guidance for Unsolicited Proposals,
  such unsolicited proposals should:
      •   be for new, unique, or innovative ideas;
      •   be independently originated and developed by the proposer without significant
          Government supervision, endorsement, direction, or direct involvement; and
      •   not be an advance proposal for a known agency requirement that can be acquired
          by competitive methods.

          Space Grant Program. We found that Goddard grant officers improperly awarded
  12 supplements totaling $1.3 million to Old Dominion based on proposals that were not
  in compliance with this guidance. Nine of these supplements were for routine activities
  that were not new, unique, or innovative, and NASA representatives from Langley and
  Wallops Flight Facility were actively involved in developing proposals for five of the
  supplements. Moreover, a Goddard grant officer awarded one supplement to Old
  Dominion for research activities that were specifically for the benefit of the U.S. Navy; as
  such, these activities fell outside the scope of the original training grant so NASA should
  not have been involved in funding them. Finally, we found that the Goddard grant officer
  awarded two supplements unrelated to the original grant that should have been awarded
  as a new grant. Together, the supplements Goddard awarded to Old Dominion were as
  follows:

      •   Three supplements totaling $550,000 were awarded to administer the Virginia
          Aerospace Science and Technology Scholars program at Langley. The interns
          funded under these supplements worked with the state government to create
          awareness of the program and coordinated with the state Department of Education
          in recruitment and selection of students. We found an e-mail in the grant file that
          showed a Langley training specialist requested Old Dominion submit this
          proposal. NASA was actively involved with the submission of what was
          ostensibly a proposal, which does not comply with NASA regulations for
          unsolicited proposals. Additionally, we found that the administration of the
          Scholarship Program involved the selection of interns for an online course and
          summer scholarship program. Administration of a scholarship program is a
          routine activity and not new, unique, or innovative; therefore, awarding these
          grant supplements as if they were based on unsolicited proposals was
          inappropriate.

      •   Two supplements totaling $8,500 were awarded for administering an internship
          program at Wallops to recruit and select students to work in the Exploration



REPORT NO. IG-11-026                                                                             9
                                                                                     RESULTS



         Systems Mission Directorate in areas such as spacecraft, propulsion, lunar and
         planetary surface systems, and ground operations. Documentation showed that
         the proposal was submitted in December 2008. However, e-mail correspondence
         between a Wallops public affairs specialist and the grantee 5 months earlier
         discussed the funding available as well as the terms for this award. Based on this
         e-mail correspondence, we determined that prior to the submission of the
         proposal, Wallops had already identified the two individuals who would be
         selected for the program. This level of involvement by NASA prior to submission
         of the proposal does not comply with NASA requirements for unsolicited
         proposals. In addition, administration of a scholarship program is a routine
         activity and not new, unique, or innovative; therefore, awarding these grant
         supplements as if they were based on unsolicited proposals was inappropriate.

     •   Four supplements totaling $514,000 were awarded to administer Langley’s
         Geospatial Informational Systems internship program. The tasks involved
         identifying students for the internship program, providing staff to assist with
         research and development, working with NASA to develop and distribute a
         marketing and recruiting plan, and developing a website to advertise the program.
         Again, because management of an internship program is a routine activity and not
         new, unique, or innovative, awarding these grant supplements as if they were
         based on unsolicited proposals was inappropriate.

     •   The supplement involving the Navy totaled $175,000 awarded for students to
         determine the effects of design modifications on the airworthiness and reliability
         of a small, unmanned flight vehicle under development. The U.S. Navy’s Naval
         Air Systems Command requested and funded this research activity through
         NASA. The Navy should have independently awarded a grant to Old Dominion
         for this research. Instead, the Goddard grant officer used Navy funding to award
         this supplement. The Space Grant should not have been used as a vehicle to
         transfer funds between the Navy and Old Dominion since the research activity did
         not involve NASA.

     •   Finally, we found that the Goddard grant officer awarded two supplements to the
         Space Grant with Old Dominion totaling $51,280 for routine travel. The
         supplements funded student travel to a Fundamental Aerospace Annual Meeting
         in Atlanta, Georgia, in 2008 and 2009. A letter in the grant file from Langley to
         the NASA Space Grant Program Manager showed that each year Langley
         requested and funded the supplements from an existing project and that the
         supplements were only awarded for “running project funding through” the Space
         Grant award. Funding travel in this manner is inappropriate. Instead, Goddard’s
         grant officer should have competed this travel as separate procurement actions
         and should not have funded them as supplements to the Space Grant award with
         Old Dominion.




10                                                                     REPORT NO. IG-11-026
RESULTS



  In the 20 years since the original grant award, grant officers at Goddard have awarded
  hundreds of thousands of dollars to Old Dominion. The technical officer used the
  longevity of Old Dominion’s relationship with NASA as justification for awarding the
  supplements that were not in compliance with the requirements for unsolicited proposals.
  Specifically, the technical officer cited Old Dominion’s 15 years of experience in the
  design, development, implementation, and coordination of student research programs.
  However, awarding these supplements as if they were based on unsolicited proposals was
  not consistent with NASA policy and circumvented the competitive process. Further,
  since NASA did not solicit competitive bids for these awards, the Agency cannot be sure
  that it received the best value for the money.

         Internship Program. Similar to the issues we identified for the Space Grant
  Program, we found that since 1991 a grant officer at Glenn awarded grants annually to
  the Ohio Aerospace Institute (Ohio Aerospace) for administration of the Lewis Education
  and Research Collaborative Internship Program (Lewis Internship Program) for high
  school and college students. The Lewis Internship Program allows students to work with
  Glenn employees in fields related to their academic education. The students also attend
  symposiums and workshops to aid in the students’ technical, professional, and academic
  development.

  We found that contrary to requirements in the Handbook and Guidance on Unsolicited
  Proposals:

      •   Glenn officials improperly awarded $6 million for 2 education grants and 19
          supplements to Ohio Aerospace. Since Glenn had a yearly need for an
          organization to manage its internship program, a Broad Agency Announcement
          should have been issued to the public to solicit applications for administration of
          the program. During the “Grant Boot Camp” training, NASA Headquarters
          Office of Procurement officials confirmed this by stating that grants can only be
          awarded based on unsolicited proposals for new, unique, or innovative ideas.
          However, once a grant is awarded for an unsolicited proposal, the idea is no
          longer new, unique, or innovative since it was done previously and subsequent
          awards must be made based on proposals solicited via a Broad Agency
          Announcement. Because these grants and supplements funded a long-standing
          Glenn internship program and were not for new, unique, or innovative ideas, we
          believe funding the proposals as if they were unsolicited proposals was
          inappropriate.

      •   Glenn officials also awarded seven supplements totaling $3.7 million to extend
          Ohio Aerospace involvement in the 2009 Lewis Internship Program through
          2013. These supplements enabled Glenn to guarantee grant funds to Ohio
          Aerospace for an additional 4 years in a manner that denied other organizations in
          the area the opportunity to compete for the funding.




REPORT NO. IG-11-026                                                                            11
                                                                                          RESULTS



        •   Glenn officials awarded a $99,000 supplement to Ohio Aerospace to assist
            Kennedy Space Center with its FY 2011 internship program to fund a professor
            and an undergraduate student to complete a research project at Kennedy. This
            funding for Kennedy’s internship program was outside the scope of work and
            period of performance of the original 2009 grant awarded to Ohio Aerospace.
            Therefore, the supplement was inappropriate and instead should have been
            awarded as a new grant.

     Further, we found Glenn employees provided significant input to Ohio Aerospace prior to
     submission of its proposal, which is unallowable under NASA requirements for
     unsolicited proposals. Specifically, a Glenn Educational Programs Office employee and
     a grantee employee informed us that the Educational Programs Office provided Ohio
     Aerospace with the number of interns to include in its proposal, and Glenn developed the
     online internship application system. Moreover, we found that Glenn’s internal request
     for funding was dated prior to receipt of Ohio Aerospace’s proposal for the Lewis
     Internship Program. Glenn employees’ failure to follow NASA requirements for
     unsolicited proposals resulted in circumvention of the competitive process. Finally, since
     NASA did not solicit competitive bids for these awards, the Agency cannot be sure that it
     received the best value for its money.

     Ohio Aerospace is located directly outside one of Glenn’s entrances. The Glenn
     Procurement Officer told us that Glenn awarded these grants and supplements to Ohio
     Aerospace because Glenn needed a facility in close proximity to the Center to host the
     workshops and symposiums that are part of the internship program. He said they hold the
     workshops and symposiums at the Ohio Aerospace’s facilities because there is limited
     space available at Glenn. Additionally, he stated that Ohio Aerospace is the only
     organization that has an ongoing relationship with all Ohio universities, which enabled
     Ohio Aerospace to secure professional development workshops for program students.
     However, we found that other types of meetings, workshops, and symposiums are
     regularly held at Glenn using existing meeting and conference space. Moreover, there is
     no reason to believe that other organizations could not arrange for similar professional
     development workshops and symposiums.

     Monitoring Grantee Performance and Expenditures. During our audit we identified
     internal control weaknesses in NASA’s monitoring of grantee performance and financial
     expenditures. Specifically, NASA has minimal requirements in place to ensure that, once
     grant funds are awarded, grant officers perform adequate oversight of the grantee’s
     financial and programmatic performance. We found that neither the Handbook nor
     related NASA requirements address whether the Agency should perform desk reviews or
     site visits to grantee locations. In fact, we found the requirements concerning review of
     grantee financial and programmatic performance reports minimal at best.

     NASA policy does not require grant officers and technical officers to visit grantees to
     monitor grantee performance or expenditures. Further, Agency grant officers are not
     required to perform desk reviews of file documentation or grantee expenditures to



12                                                                          REPORT NO. IG-11-026
RESULTS



  identify any negative indicators regarding a grantee’s performance. Although NASA
  complies with OMB Circular A-133, which requires that grantees obtain annual audits
  when Federal expenditures exceed $500,000, we believe that NASA should not rely
  solely on these audits to monitor grant performance or identify unallowable costs.
  According to June 2011 Government Accountability Office (GAO) testimony concerning
  A-133 requirements, the single audit process does not facilitate the timely identification
  and correction of audit findings. GAO’s testimony also noted that it could take years to
  correct significant deficiencies and material weaknesses that expose Federal funds to
  misuse or fraud. 13 While we see value in the single audit process, we believe that NASA
  policy needs to specify additional oversight requirements to assess grantee performance
  and expenditures of grant funds.

  During the course of our review, we found examples of NASA managers who
  implemented mechanisms for monitoring grantee performance despite limited Agency
  requirements. Specifically, we found that the Science Mission Directorate maintains a
  tracking system to oversee the funding and performance of its grants. According to
  Directorate officials, this system is used to track the receipt and review of performance
  reports. For the Science Mission Directorate grants we reviewed, we found that this
  system was effective in ensuring that supplemental funding was not approved if reports
  were not received, but we did not find evidence that the technical officer had reviewed
  the grantees’ performance reports. Further, a Headquarters Office of Education official
  informed us that a Performance Measurement System to track performance for education
  projects is currently under development. However, another technical officer we spoke
  with indicated that examination review of grantee annual performance reports essentially
  consisted of a cursory review. Further, a grant officer equated grant funding with giving
  a “gift” to the grantee, which in our view means that once the funding is awarded the
  Agency’s oversight responsibilities are minimal. Based on such comments from Agency
  grant officers and the limited internal controls, policies, and oversight procedures in
  place, we have significant concerns about the adequacy of NASA’s monitoring of grantee
  performance.

  Although grantees submit quarterly financial and annual performance reports, we found
  minimal evidence that grant officers monitor the performance or expenditures of
  grantees. Specifically, we found little evidence that they use the reports to substantively
  assess grantee performance or test the validity of expenditures. We found no evidence
  that grant officers either perform desk reviews or conduct site visits of grantees, and
  officials at each of the eight grantees reviewed confirmed that NASA officials had not
  conducted site visits at their locations. As previously mentioned, NASA policy does not
  require this type of monitoring. However, we believe these oversight procedures are
  important to help ensure that NASA’s grant funds are used judiciously and accomplish
  the grant’s goals and objectives. Failure to adequately monitor grantee performance


  13
       GAO, “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
       (GAO-11-773T, June 23, 2011).



REPORT NO. IG-11-026                                                                            13
                                                                                                           RESULTS



     increases the risk that grant goals will not be met and also reduces the Agency’s ability to
     identify fraud, waste, or abuse.

     NASA’s limited requirements regarding the monitoring of grant awards markedly differs
     from that of other Federal grant-making agencies. For example, the Department of
     Justice’s Office of Justice Programs, which in FY 2010 awarded $3 billion in grants,
     requires annual desk reviews of grant awards and recommends such reviews be done
     semiannually. 14 A recent audit by the Department of Justice’s Office of Inspector
     General found that grant monitoring should include communication with grantees
     through e-mail, mail, or by telephone to address specific grantee questions or program
     manager concerns regarding: (1) compliance or performance; (2) completion of desk
     reviews of the materials in a grantee file to determine administrative, financial, and
     programmatic compliance, as well as grantee performance; and (3) for selected grants,
     completion of site visits that include on-site monitoring at program facilities or events
     and in-person visits with grantees. 15 The report further identified improvements the
     Department of Justice had made in monitoring and oversight that included: (1)
     establishing a working group to review existing monitoring practices and develop
     standard monitoring approaches and procedures; (2) developing and enhancing grant
     tools such as the Grants Management System, Grant Monitoring Tool, and the Grant
     Assessment Tool; (3) updating oversight and monitoring procedures in the Grant
     Manager’s Manual; and (4) making progress on revising the site visit report quality
     review process to improve site visit documentation and the quality of site visit reports.

     Further, in congressional testimony in June 2011 regarding improvements needed for
     oversight of Federal grants, the GAO stressed the need for effective oversight and
     internal controls over the grant process to ensure that the goals of the grant are achieved
     and that funds are properly used for their intended purposes. 16 The GAO stated agency
     monitoring of grantee performance is important to ensure that grantees are meeting
     program and accountability requirements. The GAO testified that in its audit work, it
     found: (1) weaknesses in the control systems of Federal agencies awarding grants;
     (2) oversight issues such as improper payments to grantees; and (3) lack of
     documentation that limited the agency’s ability to explain its decisions.

     In our view, conducting periodic, comprehensive reviews of grantee information would
     improve NASA’s ability to respond to grantee noncompliance with grant requirements.
     For example, we believe the limited oversight currently provided by NASA officials is
     the reason we identified unauthorized and unallowable costs in two of the eight grants we
     reviewed (see Appendix D for a table of questioned costs). Specifically, under one


     14
          Department of Justice, Office of Inspector General, “Office of Justice Programs’ Management of Its
          Offender Reentry Initiatives” (Audit Report 10-34, July 2010).
     15
          Department of Justice, Office of Inspector General, “Audit of the Office of Justice Programs’ Monitoring
          and Oversight of Recovery Act and Non-Recovery Act Grants” (Audit Report 11-19, March 2011).
     16
          GAO, “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
          (GAO-11-773T, June 23, 2011).



14                                                                                         REPORT NO. IG-11-026
RESULTS



   Office of Education grant awarded by Glenn and one Science Mission Directorate grant
   awarded by the NSSC, we identified the following unauthorized and unallowable costs:

          •   Unauthorized Costs. The grantee purchased a Bio Safety Cabinet totaling
              $6,086, which was not an authorized expense in the grant budget. Although the
              grantee stated that they had verbally advised the NASA technical officer that the
              equipment needed to be replaced, they did not obtain written authorization to
              do so.

          •   Unallowable Costs. Another grantee paid $945 in travel expenses for a NASA
              civil servant to travel on “personal” business in conjunction with a recruiting
              event. The employee stated that her previous supervisor had verbally approved
              the recruiting trip to be paid for by the grantee. However, we found no
              documentation to substantiate this claim. After we alerted them to the issue,
              Glenn managers issued a letter of collection to the grantee for the reimbursement
              of these funds; the grantee made such reimbursement on July 26, 2011. 17

   We also found that a grantee paid employee tuition totaling $7,388; however, the tuition
   cost was not included in the budget approved by NASA. The Handbook provides that
   grantees may deviate from their proposed budgets without approval from NASA except
   when the change involves property, construction, or subcontract-related costs. In our
   view, this broad discretion to deviate from proposed budgets increases the risk that
   grantees will incur unallowable costs or expenditures unrelated to the purpose of the
   grant.


Recommendations

Recommendation 1. The Assistant Administrator for Procurement should revise grant
requirements to clearly define the criteria for evaluating an unsolicited proposal, including
the requirements related to justifications for making awards based on unsolicited proposals.

Recommendation 2. The Assistant Administrator for Procurement should strengthen the
competitive requirements in the Handbook regarding competing grant awards, including
clearly defining (a) the role of the grant officer and technical officer and (b) when
unsolicited proposals should be awarded for research, education, and training activities.

Recommendation 3. The Assistant Administrator for Procurement should expand on the
newly initiated “Grant Boot Camp” training and establish a formal, recurring training
program for grant officers and technical officers that, among other topics, addresses the
issue of choosing the appropriate type of award instrument.

   17
        On July 26, 2011, the grantee reimbursed the funds identified in the letter of collection. However, as of
        August 8, 2011, the funds had not been credited to NASA because of processing delays at the
        Department of Health and Human Services, the agency responsible for the collection, receipt, and
        processing of payments collected from grantees on behalf of NASA.



REPORT NO. IG-11-026                                                                                                15
                                                                                       RESULTS



Recommendation 4. The Assistant Administrator for Procurement should establish internal
controls, policies, and procedures to require the independent review and approval of all
grants and supplements for propriety of award competition, justification, and choice of
instrument prior to award.

Recommendation 5. The Assistant Administrator for Procurement should improve internal
controls, policies, and procedures for performing periodic examinations of grantee
expenditures such as desk reviews and site visits in order to identify unallowable and
unsupported expenditures and increase the oversight necessary to ensure that grant funds are
used for their intended purpose.

Recommendation 6. The Assistant Administrator for Procurement should remedy the
$6,086 in unauthorized costs for the purchase of unapproved equipment.

Recommendation 7. The Assistant Administrator for Procurement should return to the
Space Grant Program the $292,568 in unallowable costs for funds used for other than Space
Grant purposes.

Recommendation 8. The Assistant Administrator for Procurement should revise the
Handbook to require a minimum threshold for all grantee budget deviations (excluding
categories already requiring approval) and that technical officers approve budget deviations
in excess of such threshold prior to the expenditure of grant funds.

Recommendation 9. The Glenn Research Center Director should develop and implement a
plan to ensure that future awards for the Lewis Education and Research Collaborative
Internship Program and other educational programs are competitively announced and
proposals are independently reviewed and approved prior to award.

In keeping with our normal practice, the OIG provided a draft of this report to NASA
management for review and comment. However, as of September 12, 2011, NASA had not
provided an official response and therefore we are issuing the report without a management
response. Technical comments received earlier from NASA have been incorporated as
appropriate.




16                                                                       REPORT NO. IG-11-026
APPENDIXES




                                                                           APPENDIX A


Scope and Methodology

  We performed this audit from June 2010 through August 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our audit objectives were to determine whether NASA’s grant funds are being used for
  their intended purpose and whether the Agency is compliant with established laws,
  regulations, and NASA-specific requirements in its administration and management of
  the grants. We interviewed key personnel at NASA Headquarters, NSSC, Goddard, and
  Glenn involved in grant administration, management, and award processes. We
  identified and reviewed relevant Federal laws and regulations, NASA policies,
  procedures, plans, and requirements, and other criteria (a detailed list of items reviewed is
  provided on the following pages). The methodology we used for the review is described
  below.

  Grant Universe and Review Period. The NASA Office of Procurement provided us
  with the universe of grants with actions out of the Federal Procurement Data System,
  with the financial portion from the Office of the Chief Financial Officer out of SAP,
  NASA’s accounting system, for the period of October 1, 2007, through March 31, 2010.

  Grant Selection. During the audit, we judgmentally selected eight grants for substantive
  testing. We selected open and closed grants, awarded by both NASA Centers and the
  NSSC that were in excess of $450,000. Research, education, and training grants were
  selected for comparative purposes. In addition, no cooperative agreements were selected
  for substantive testing during the audit, nor were facility grants because as September
  2010 when we selected the grants for review, NASA had not awarded any facility grants.

  Grant Award File Documentation. We reviewed grant award documentation including
  technical and peer review reports, budget proposals, and quarterly financial reporting
  documentation. We interviewed NASA grant officers and technical officers responsible
  for the grants examined during the audit.

  Grantee Site Visits. We also performed site visits at grantee locations for the eight
  grants examined during the audit to interview grantee officials, to perform substantive
  transaction testing necessary to validate whether NASA grant funds were used for their
  intended purpose, and to assess the sufficiency of grantee performance and the
  sufficiency of NASA oversight of awarded grants.


REPORT NO. IG-11-026                                                                              17
                                                                                       APPENDIX A



     We identified and reviewed the following criteria as applicable to our audit objectives:

     Federal Laws, Regulations, Policies, and Requirements

     Public Law 107-347, “Federal Information Security Management Act of 2002,”
     December 17, 2002

     2 C.F.R. Part 215, “Uniform Administrative Requirements for Grants and Agreements
     with Institutions of Higher Education, Hospitals and Other Non-Profit Organizations
     (OMB Circular A-110),” January 1, 2006

     2 C.F.R. Part 220, “Cost Principles for Educational Institutions (OMB Circular A-21),”
     August 31, 2005

     2 C.F.R. Part 225, “Cost Principles for State, Local and Indian Tribal Governments
     (OMB Circular A-87),” August 31, 2005

     2 C.F.R. Part 230, “Cost Principles for Non-Profit Organizations (OMB Circular
     A-122),” August 31, 2005

     14 C.F.R. Part 1260, “Uniform Administrative Requirements for Grants and Cooperative
     Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
     Organizations,” January 1, 2009

     31 United States Code (U.S.C.) § 6304, “Using Grant Agreements,” January 5, 2009

     31 U.S.C. § 6305, “Using Cooperative Agreements,” January 5, 2009

     OMB Circular A-133, “Audits of States, Local Governments and Non-Profit
     Organizations,” June 27, 2003

     OMB Memorandum M-10-15, “FY 2010 Reporting Instructions for the Federal
     Information Security Management Act and Agency Privacy Management,” April 21,
     2010

     NASA Policies, Procedures and Circulars

     NPR 2810.1A, “Chapter 4 - Contracts, Grants, and Agreements,” May 16, 2006

     NASA Policy Directive 5101.1E, “Requirements for Legal Review of Procurement
     Matters,” September 15, 1997

     NPR 5800.1, “Grant and Cooperative Agreement Handbook” (14 C.F.R. 1260), April 20,
     2007

     NPR 9680.1, “NASA’s Management of Grants and Cooperative Agreements,”
     October 31, 2008


18                                                                          REPORT NO. IG-11-026
APPENDIX A



  Grant Information Circular (GIC) 01-01, “Guidance on Property Administration
  Requirements for Special Purpose and General Purpose Equipment,” March 29, 2001

  GIC 03-01, “Accelerated Schedule for Property Reporting,” September 4, 2003

  GIC 05-03, “Additional Guidance Related to the Processing of Unsolicited Proposals,
  Successor Proposals and Congressional Interest Items (Earmarks),” April 7, 2005

  GIC 05-04, “Peer Review Documentation,” October 17, 2005

  GIC 06-02, “Personal Identity Verification of Grantees and Recipients,” September 22,
  2006

  GIC 07-02, “Scientific and Technical Information,” April 5, 2007

  GIC 08-01, “Ensuring Only Allowable, Reasonable, and Necessary Costs in the Award of
  Grants and Cooperative Agreements,” February 14, 2008

  GIC 09-01, “Class Deviation to Remove the United States Citizenship Requirement for
  Students and Faculty Receiving Direct Support under Education and Training Grants,”
  July 16, 2009

  GIC 09-04, “Substitution of Standard Form (SF) 425 for Standard Form (SF) 272: Class
  Deviation from the Requirements at C.F.R. 1260.26 and Exhibits D & G of 14 C.F.R.
  Part 1260,” October 27, 2009

  GIC 11-02, “Requirements for Non-Competitive Agency Grant and Cooperative
  Agreement Actions, Exclusive of those actions prescribed by 14 CFR 1260.17,
  Evaluation and Selection of Unsolicited Proposals,” May 24, 2011

  “Guidance for the Preparation and Submission of Unsolicited Proposals,” revised
  February 10, 2000

  Use of Computer-Processed Data. We used computer-processed data to determine our
  NASA grants universe. However, we initially found discrepancies in the computer-
  processed data concerning the actual number of grants reported between Federal
  Procurement Data System and SAP, the information systems used to develop the NASA
  grants universe used in the audit. We brought the discrepancies to the Office of
  Procurement’s attention and worked closely with Agency officials to identify and
  determine the cause of the discrepancies. As a result, we were able to identify and
  reconcile the discrepancies and identify a usable universe.




REPORT NO. IG-11-026                                                                      19
                                                                                        APPENDIX A



Review of Internal Controls

     We reviewed internal controls for NASA’s grant administration and management
     processes related to the solicitation, pre-award, award, and closeout of grants, including
     the oversight of NASA grantees and their progress in meeting established grant award
     requirements. The control weaknesses we identified are discussed in this report. Our
     recommendations, if implemented, will correct the identified control weaknesses.


Prior Coverage

     During the last 5 years, NASA and the GAO have issued the following reports and
     testimony that are of particular relevance to the subject of this report. Unrestricted
     reports can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY11/
     (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “Audit of NASA Education and Training Grants” (IG-07-029, September 18, 2007)

     “Audit of NASA’s Management and Funding of Fiscal Year 2006 Congressional
     Earmarks” (IG-07-028, August 9, 2007)

     Government Accountability Office

     “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
     (GAO-11-773T, June 23, 2011)

     “Grants Management – Grantees’ Concerns with Efforts to Streamline and Simplify
     Processes” (GAO-06-566, July 2006)




20                                                                           REPORT NO. IG-11-026
APPENDIX B




                                            GRANTS REVIEWED DURING THE
                                                                AUDIT


                                                            Responsible
Grant Number              Grantee             Grant Type   NASA Center       Total

NNC07ZA03G     Ohio Aerospace Institute      Education       Glenn          $984,807
NNC09ZA01G     Ohio Aerospace Institute      Education       Glenn         $4,966,377
NNG05GF89H     Old Dominion University       Training        Goddard       $5,451,164
               Research Foundation
NNX07AR77G     Case Western Reserve          Research        NSSC           $560,009
               University
NNX09AB74G     Carnegie Institution of       Research        NSSC          $1,985,641
               Washington
NNX08AJ82G     Johns Hopkins University-     Research        NSSC          $1,709,893
               Applied Physics Laboratory
NNX09AL39G     Science Museum of Minnesota   Education       NSSC           $758,686
NNX08AP05G     Adler Planetarium and         Education       NSSC           $903,879
               Astronomy Museum
  Total                                                                   $17,320,456




REPORT NO. IG-11-026                                                                    21
                                                                                      APPENDIX C




                                            GRANT OBJECTIVES AND ISSUES
                                                             IDENTIFIED


Grant Number            Grantee                  Grant Objectives                 Issues Found
NNC07ZA03G     Ohio Aerospace Institute    Administer Glenn’s summer         Limited oversight after
                                           internship program for college    grant award
                                           and high school students
NNC09ZA01G     Ohio Aerospace Institute    Administer Glenn’s summer         Unallowable costs;
                                           internship program for college    circumvention of
                                           and high school students          required grant award
                                                                             process; limited
                                                                             oversight after grant
                                                                             award
NNG05GF89H     Old Dominion University     Space Grant Program to            Unallowable costs;
               Research Foundation         broaden the base of aerospace     circumvention of
                                           research, enhancing aerospace     required grant award
                                           education and conducting          process; limited
                                           public service functions          oversight after grant
                                                                             award
NNX07AR77G     Case Western Reserve        Provide operational assistance    No issues identified
               University                  and expertise in geophysical
                                           datasets
NNX09AB74G     Carnegie Institution of     Accomplish science and            Unauthorized costs;
               Washington                  technology activities to          limited oversight after
                                           address questions about the       grant award
                                           Mars sample return
NNX08AJ82G     Johns Hopkins University-   Understand the life cycle of      No issues reported
               Applied Physics             the Interstellar Medium
               Laboratory
NNX09AL39G     Science Museum of           Establish a program to educate    No issues reported
               Minnesota                   the public on climate change
                                           issues
NNX08AP05G     Adler Planetarium and       Development of two exhibits       No issues reported
               Astronomy Museum            (Planet Explorers and Deep
                                           Space Adventure)




22                                                                          REPORT NO. IG-11-026
APPENDIX D




                                                       TABLE OF QUESTIONED COSTS


  Questioned Costs*                                                                   Amount         Page
  Unauthorized Costs
   Unauthorized purchase of a Bio Safety Cabinet                                  $    6,086         14
  Unallowable Costs
   Grant fellows hired to perform daily administrative tasks                       292,568             7
   Travel expenses for NASA civil servant to travel on “personal”
   business in conjunction with a recruiting event**                                   945           14
    Total                                                                         $299,599
  * Questioned Costs are expenditures that are questioned by the Office of Inspector General because of an
    alleged violation of legal, regulatory, or contractual requirements, are not supported by adequate
    documentation at the time of the audit, or are unauthorized or unallowable.
  **The $945 in travel expenses associated with this issue was reimbursed by the grantee on July 26, 2011.
    However, as of August 8, 2011, the funds had not been credited to NASA because of processing delays
    at the Department of Health and Human Services, the agency responsible for the collection, receipt, and
    processing of payments collected from grantees on behalf of NASA.




REPORT NO. IG-11-026                                                                                          23
                                                                               APPENDIX E




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Director, Dryden Flight Research Center
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Jet Propulsion Laboratory
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Director, Langley Research Center
     Director, Marshall Space Flight Center
     Executive Director, NASA Shared Services Center
     Director, Stennis Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs




24                                                                    REPORT NO. IG-11-026
APPENDIX E



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-11-026                                                                 25
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Joseph Shook, Project Manager
   Daniel Birnbaum, Lead Auditor
   Bobbie Wells, Senior Auditor
   Lynette Westfall, Senior Auditor
   Susan Bachle, Senior Auditor
   Amy Bannister, Senior Auditor
   Rebecca Carpenter, Senior Management Analyst
   Annette Huffman, Program Assistant
   Elizabeth Richardson, Associate Counsel, Office of Inspector General




REPORT NO. IG-11-026                                                      27
                                                                                 SEPTEMBER 12, 2011
                                                                        REPORT No. IG-11-026




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
